<html>
<title> - DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT, AND INDEPENDENT AGENCIES APPROPRIATIONS FOR 2003</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



                DEPARTMENTS  OF  VETERANS  AFFAIRS  AND

                 HOUSING  AND  URBAN  DEVELOPMENT,  AND

                  INDEPENDENT AGENCIES APPROPRIATIONS

                                FOR 2003

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS
                             SECOND SESSION
                                ________
            SUBCOMMITTEE ON VA, HUD, AND INDEPENDENT AGENCIES
                   JAMES T. WALSH, New York, Chairman
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 DAVID L. HOBSON, Ohio               MARCY KAPTUR, Ohio
 JOE KNOLLENBERG, Michigan           CARRIE P. MEEK, Florida
 RODNEY P. FRELINGHUYSEN, New Jersey DAVID E. PRICE, North Carolina
 ANNE M. NORTHUP, Kentucky           ROBERT E. ``BUD'' CRAMER, Jr., 
 JOHN E. SUNUNU, New Hampshire       Alabama
 VIRGIL H. GOODE, Jr., Virginia      CHAKA FATTAH, Pennsylvania     
 ROBERT B. ADERHOLT, Alabama        
                                    
 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
          Frank M. Cushing, Timothy L. Peterson, Dena L. Baron,
         Jennifer Miller, and Jennifer Whitson, Staff Assistants
                                ________
                                 PART 3

                       NATIONAL SCIENCE FOUNDATION

                              <snowflake>

                                ________
         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 79-990                     WASHINGTON : 2002





                      COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                  DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California             JOHN P. MURTHA, Pennsylvania
 HAROLD ROGERS, Kentucky             NORMAN D. DICKS, Washington
 JOE SKEEN, New Mexico               MARTIN OLAV SABO, Minnesota
 FRANK R. WOLF, Virginia             STENY H. HOYER, Maryland
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                  MARCY KAPTUR, Ohio
 SONNY CALLAHAN, Alabama             NANCY PELOSI, California
 JAMES T. WALSH, New York            PETER J. VISCLOSKY, Indiana
 CHARLES H. TAYLOR, North Carolina   NITA M. LOWEY, New York
 DAVID L. HOBSON, Ohio               JOSE E. SERRANO, New York
 ERNEST J. ISTOOK, Jr., Oklahoma     ROSA L. DeLAURO, Connecticut
 HENRY BONILLA, Texas                JAMES P. MORAN, Virginia
 JOE KNOLLENBERG, Michigan           JOHN W. OLVER, Massachusetts
 DAN MILLER, Florida                 ED PASTOR, Arizona
 JACK KINGSTON, Georgia              CARRIE P. MEEK, Florida
 RODNEY P. FRELINGHUYSEN, New Jersey DAVID E. PRICE, North Carolina
 ROGER F. WICKER, Mississippi        CHET EDWARDS, Texas
 GEORGE R. NETHERCUTT, Jr.,          ROBERT E. ``BUD'' CRAMER, Jr., 
Washington                           Alabama
 RANDY ``DUKE'' CUNNINGHAM,          PATRICK J. KENNEDY, Rhode Island
California                           JAMES E. CLYBURN, South Carolina
 TODD TIAHRT, Kansas                 MAURICE D. HINCHEY, New York
 ZACH WAMP, Tennessee                LUCILLE ROYBAL-ALLARD, California
 TOM LATHAM, Iowa                    SAM FARR, California
 ANNE M. NORTHUP, Kentucky           JESSE L. JACKSON, Jr., Illinois
 ROBERT B. ADERHOLT, Alabama         CAROLYN C. KILPATRICK, Michigan
 JO ANN EMERSON, Missouri            ALLEN BOYD, Florida
 JOHN E. SUNUNU, New Hampshire       CHAKA FATTAH, Pennsylvania
 KAY GRANGER, Texas                  STEVEN R. ROTHMAN, New Jersey    
 JOHN E. PETERSON, Pennsylvania
 JOHN T. DOOLITTLE, California
 RAY LaHOOD, Illinois
 JOHN E. SWEENEY, New York
 DAVID VITTER, Louisiana
 DON SHERWOOD, Pennsylvania
   
 VIRGIL H. GOODE, Jr., Virginia     
                                    
                 James W. Dyer, Clerk and Staff Director

                                  (ii)


 
DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT, AND 
              INDEPENDENT AGENCIES APPROPRIATIONS FOR 2003

                              ----------                              

                                          Thursday, April 11, 2002.

                      NATIONAL SCIENCE FOUNDATION

                               WITNESSES

DR. RITA COLWELL, DIRECTOR, NATIONAL SCIENCE FOUNDATION
DR. EAMON KELLY, CHAIRMAN, NATIONAL SCIENCE BOARD
    Mr. Walsh. The Subcommittee will come to order.
    Mr. Mollohan said to go ahead and proceed and he will join 
us momentarily.
    Good morning. Today we will be taking testimony on the 
Fiscal Year 2003 budget request for the National Science 
Foundation. For 2003, NSF's request totals $5.036 billion, an 
increase of $240 million or 4.7 percent above Fiscal Year 2002.
    I should note that these figures are a little deceptive due 
to the fact that $76 million or 31 percent of the increase is 
due to a proposed transfer to NSF of three programs currently 
operated at EPA, NOAA, and USGS, and we will explore those a 
little later on. It is not nearly as hefty a increase as it 
would seem. When the transfer is backed out, the research 
increase only amounts to three percent, which is two percent 
above what the Administration proposed last year. So they 
tripled their request, but it is still pretty meager. I expect 
we will hear more about this in the course of this morning's 
hearing.
    Testifying before the Committee again this year will be the 
Chairman of the National Science Board, Dr. Eamon Kelly, and 
NSF's Director, Dr. Rita Colwell, and we welcome you back this 
morning, both of you.
    I would also like to note that this may be the last such 
hearing for Dr. Kelly whose term as Chairman of the Science 
Board expires in May.
    Dr. Kelly, there is no question that the growth and recent 
prosperity of the National Science Foundation is in very large 
part due to your guidance and leadership, and so on behalf of 
the Subcommittee, we would like to thank you for all of your 
hard work and dedication and congratulate you for your 
overwhelming success.
    Dr. Kelly. Thank you, Mr. Chairman.
    Mr. Walsh. When Alan comes, I will give him an opportunity 
to comment, and at this time, I would like to recognize Dr. 
Kelly and Dr. Colwell for opening remarks. In the interest of 
time, we would appreciate it if you would summarize your 
statements, and hopefully we will be able to get into some of 
the issues that you are interested in and we are interested in 
the time alloted for questions and answers.
    Please proceed.

                 Summary Statement--Dr. Rita R. Colwell

    Dr. Colwell. Chairman Walsh and members of the Committee, I 
thank you for providing the opportunity to discuss the 
President's budget request for the National Science Foundation.
    Every year, the Foundation's optimal use of limited public 
funds has relied on two conditions: Ensuring that the research 
and education investments are aimed and continuously re-aimed 
at the frontiers of understanding; and also certifying that 
every dollar goes to competitive merit-reviewed, time-limited 
awards with clear criteria for success. When you meet these two 
conditions, our Nation gets the most intellectual and economic 
leverage from research and education investments.
    The National Science Foundation is requesting $5.036 
billion for FY 2003. This is $240 million more or five percent 
more than the previous fiscal year. For the United States to 
stay on the leading edge of discovery and innovation, we cannot 
do less.


                      NSF PRIORITY-SETTING PROCESS


    Before providing a few highlights of the budget, let me 
state that the priority-setting process, the process at NSF, 
results from a continual discussion and consultation with the 
research community. We add new programs or we enhance programs 
only after we seek the combined expertise and the experience of 
the science and engineering community. The director and the 
deputy director, works closely with them and the National 
Science Board. It is, indeed, team work.
    Programs are initiated or they are enlarged based on 
considerations of the intellectual merit, broader impacts of 
the research, the importance to science and engineering, 
balanced across fields and disciplines and synergy with 
research in other agencies and with other countries as well. 
NSF coordinates its research with our sister research agencies, 
both informally, because we have an active monitoring by the 
program officers of other agency's programs, and then formally 
through more than 150 MOUs and interagency agreements that 
spell out the various agency roles in the research activities.


                 NSF RESEARCH AND INVESTMENT PRIORITIES


    One of the highlights of the budget is a second installment 
of $200 million for the national five-year $1 billion Math and 
Science Partnership Program. The program links local schools 
with colleges and universities to improve the pre-K-12 math and 
science education, to train teachers, and to create innovative 
ways to raise the performance of all students and schools.
    There is an investment of about $37 million to increase the 
annual stipends for graduate fellows to $25,000. This will help 
us attract more of the Nation's most promising students to 
science and engineering.
    The budget also includes funding for six priority areas: 
$221 million for nanotechnology research, $286 million for 
information technology research, and $60 million as part of the 
priority area in mathematical and statistical sciences research 
that will ultimately advance all of the disciplines in science 
and engineering.
    Our request would also direct $185 million to NSF's 
Learning for the 21st Century Workforce. This is a priority 
area, and it includes $20 million to fund three or four new 
multi-disciplinary, multi-institutional Science of Learning 
Centers. These will enhance our understanding of how we learn, 
how the brainstores information, and how we can best use new 
information and technology to promote learning.
    We are also requesting $10 million to seed a new priority 
area in the social, behavioral and economic sciences. This will 
allow us to explore the complex interactions between new 
technology and society so that we can better anticipate and 
prepare for their consequences.
    And, finally, the budget requests $79 million for research 
on biocomplexity in the environment, a very important 
investment that builds on past investments so that we can study 
the remarkable and the dynamic web of relationships that arise 
when living things at all levels interact with the environment. 
Research in two areas of biocomplexity, microbial genome 
sequencing and the ecology of infectious diseases, will help us 
develop new strategies to assess and manage the risk of 
infectious diseases as well as the risk of invasive species, 
genetically-modified organisms, and biological weapons.
    I need to add that as part of the Administration's new 
multi-agency Climate Change Research Initiative, we are going 
to implement a $15 million program to advance the understanding 
of highly-focused areas of climate science. This is focused to 
reduce uncertainty and to facilitate policy decisions.
    Our budget also includes, as the Chairman mentioned, $76 
million for programs slated to be transferred to NSF from NOAA, 
EPA, and the USGS. I would like to assure the Committee that 
NSF has been working closely with these agencies to develop 
plans for implementing these transfers should they be approved 
by Congress.
    In the area of large facilities, we will continue support 
for the next phase of construction of the Atacama Large 
Millimeter Array, ALMA. New construction projects in FY 2003 
include two prototype sites for Phase I of the National 
Ecological Observatory Network, NEON, which is proposed at $12 
million. This facility will analyze data to detect abrupt 
changes or long-term trends in the environment.
    The budget also requests $35 million for EarthScope, which 
will allow us to detect and investigate earthquakes, volcanic 
eruptions, and landslides on the North American continent.
    Mr. Chairman, if there are no objections, I would like to 
include a copy of the NSF budget summary as part of my 
testimony, and I will be very pleased to respond to any 
questions the Committee may have, and I am sure the Committee 
will have some questions.
    Thank you.
    Mr. Walsh. Thank you, Dr. Colwell. We will include the 
budget submission in the record.
    Dr. Colwell. Thank you.

    [Clerk's note.--As a matter of standard procedure, the 
Committee includes the budget submission for each agency in its 
entirety following the hearing transcript and responses to 
questions submitted for the record. Please refer to page 89 for 
the budget justification.]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Walsh. Dr. Kelly.

                 Summary Statement--Dr. Eamon M. Kelly

    Dr. Kelly. Thank you. On behalf of the National Science 
Board, I thank the Subcommittee for its sustained commitment to 
a broad portfolio of investments in science, mathematics, 
engineering, and technology research and education. These 
investments contribute to our Nation's long-term security and 
economic vitality and the well-being of all Americans.
    The National Science Board has approved and endorses the 
National Science Foundation's budget request for Fiscal Year 
2003. The five percent increase in funding will allow NSF to 
continue to nurture the people, ideas, and tools needed to 
generate new knowledge and new technologies.
    Among the important initiatives that this budget includes 
are priorities for the science and engineering workforce, 
mathematic and statistical science research that will advance 
disciplinary science and engineering, and research in the 
social, behavioral and economic sciences to explore the complex 
interactions between technology and society. The NSF Director, 
Dr. Colwell, has discussed these and other specifics of the 
budget request in her testimony.
    Among Federal agencies, NSF has the unique mission of 
advancing the Nation's health, prosperity, and welfare by 
supporting basic research and education in all fields of 
science and engineering. NSF programs support new discoveries 
and innovative educational programs at all levels. NSF-funded 
research and education are critical to sustaining U.S. strength 
in science and technology, which is a key element of national 
security.
    Revolutionary advances such as those in information 
technology, nanotechnology, materials, and biotechnology remind 
us that such breakthroughs with such promising benefits to the 
economy, the work force, education, health and national 
security, that they require long-term high-risk investments. 
The transaction costs of September 11th and its aftermath are 
both hidden and enormous and they present a significant threat 
to the U.S. economy, I think more than the oil threat.
    The best remedy to mitigate this threat is innovative 
technologies derived from rapidly expanding new knowledge.
    Despite widespread recognition of the benefits that result 
from Federally-funded research, as a Nation, we are seriously 
underinvesting in basic research. In our $10 trillion gross 
domestic product, the Federal Government budgets $24 billion 
for basic research, which represents one-fourth of one percent 
of the gross domestic product.
    Of the $24 billion, NSF receives $3 billion to support 
cutting-edge, truly, basic research. It is estimated that 
proposals representing another $5 billion annually are worthy 
of investment if the funds were available. In my judgment, this 
level of underfunding is now enabling other nations tostart--
they are closing the gap in terms of scientific capacity, essentially 
in certain areas.
    Achieving a balanced portfolio in the basic sciences is as 
important as the quality and quantity of research funded. For 
example, as Congressional leaders and others have pointed out, 
the success of the National Institutes of Health's efforts to 
find cures for deadly diseases depends heavily on the 
underpinning of basic research supported by NSF.
    To fulfill its mission to monitor the health of the 
Nation's science and engineering enterprise and advise the 
President and the Congress, the Board has developed a 
conceptual framework for addressing critical issues in science 
for the 21st century. The Board has begun to lay the groundwork 
for defining critical areas within these complex subjects: 
Priority allocation of Federal research resources, the U.S. 
role in international science and engineering, infrastructure 
in the 21st century, national workforce policies for science 
and engineering, and environmental science and engineering.
    We completed our report, ``Environmental Science and 
Engineering for the 21st Century,'' in 2000. Today I would like 
to comment briefly on the other four policy areas. The first 
one is Federal investments in science and engineering. The 
level of Federal investment is crucial to the health of the 
science and engineering enterprise. Equally crucial is how 
effectively that investment is made. The growing opportunities 
for discovery and the inevitable limits on Federal spending 
mean that hard choices must be made and priorities set. In its 
recent report entitled ``Federal Research Priorities, a Process 
for Setting Priorities,'' the Board offers its recommendations 
for a more effective budget process, including an improved 
information base and a process for allocating Federal funding 
for research.
    The second one is the U.S. Government role in international 
science and engineering. The conduct, communication, and use of 
science are intrinsically global. Collaborations and 
international partnerships contribute to addressing a broad 
range of international problems and help build more stable 
relations among nations. In its recent report entitled ``Toward 
a More Effective Role for the U.S. Government in International 
Science and Engineering,'' the Board recommends that the 
Federal Government increase the effectiveness of its 
coordination activities, increase international cooperation--
especially with developing countries and by younger 
scientists--and improve the use of science and engineering 
information in dealing with global issues.
    The third area is U.S. science and engineering 
infrastructure. An area of constant concern for NSF and the 
Board is the quality and adequacy of infrastructure to enable 
scientific discoveries in the future. The rapidly changing 
environment of new knowledge, new tools, and new information 
capability has created a demand for more complex and more 
costly facilities for scientific research.
    A Board task force is assessing the changing needs and 
strategies to ensure that the Nation will have the 
infrastructure to sustain cutting-edge science and engineering 
research. We expect to receive the task force's preliminary 
findings this summer.
    And, finally, national workforce policies for science and 
engineering. For U.S. leadership in science and engineering, 
there is no more important issue than the development of a 
skilled technical workforce. As a Nation, we are not attracting 
the numbers of science and engineering students our Nation 
needs to sustain its leadership, nor are we successfully 
tapping all our domestic resources, especially underrepresented 
minorities and women.
    A Board task force is considering policy options for 
ensuring an adequate science and engineering workforce for the 
future. We anticipate receiving the task force's report by the 
end of the year.
    Mr. Chairman, at this point I would like to close my formal 
remarks. I thank, once again, the Subcommittee for its openness 
to new and difficult ideas, its long-term support of the 
science community, especially the National Science Foundation, 
and for allowing me to participate and comment on significant 
National policy concerns as well as on the Foundation's budget 
request.
    Thank you.
    Mr. Walsh. Thank you. Thank you both.
    [The information follows.]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. Alan, I made an opening statement. Would you 
like your opportunity to do that now?
    Mr. Mollohan. Thank you, Mr. Chairman. I apologize for 
being a little bit late.
    Dr. Colwell and Dr. Kelly, welcome to the hearing. I want 
to join Chairman Walsh in welcoming you to the Subcommittee. It 
is good to see both of you again.
    As you know, members of both parties and of both houses of 
Congress have shown a great interest in ensuring that science 
research is funded at appropriate levels. To some extent, we 
have been successful, and NSF has benefitted from this in past 
years. That is why this budget submission is somewhat 
disappointing.
    Government-wide research funding is up sharply, yet this 
budget lags. I think that we all support providing more 
resources to the National Institutes of Health, for example, 
but I firmly believe that we need to ensure that funding for 
basic research keeps pace as well. Your budget identifies 
priorities, which is important, but it does leave me wondering 
about core research and the fact that it looks to be suffering.
    I look forward to hearing you talk about these issues in 
your testimony.
    Thank you, Mr. Chairman.
    Mr. Walsh. Thank you, Alan.
    I would like to point out that Congressman Frelinghuysen of 
New Jersey is with us today, as is Congressman Price of North 
Carolina.
    We will begin with questions.
    Dr. Colwell, as I hinted in my opening remarks, when you 
look closely at the NSF budget request and when you discount 
the portion of the increase that is merely the transfer 
programs from the other agencies, the real increase is only 
about three percent. Looking closer, most of this three percent 
increase is, in fact, targeted for certain priority areas such 
as biocomplexity and Learning for the 21st Century Workforce.
    Through this proposal, NSF has thus cut core science 
programs in supercomputing, oceanography, astronomy, 
atmospheric research, and advance materials, among others. In 
fact, the budget proposes to cut 18.5 percent from physics 
facilities in Wisconsin, Indiana, and New York, as well as 
Nanotechnology Users Network.
    The Administration's budget indicates that there are three 
primary goals in the 2003 submission, winning the war on 
terrorism, homeland security, and reviving the economy. Madam 
Director, would you not agree that much of the success we have 
seen thus far on our war on terrorism has been attributed to 
the strength of the development of our technology?
    Dr. Colwell. I would definitely agree with you.
    Mr. Walsh. That was sort of a rhetorical question. You can 
comment briefly if you like. [Laughter.]
    Would it be fair to say that advances in the physical 
sciences, chemistry, advanced materials, physics have led to 
the development of many of the highly precise life-saving 
technologies such as global positioning systems, lasers, and 
adaptive optics that make it possible to carry out highly 
detailed satellite surveillance and military operations? 
Rhetorical.
    Dr. Colwell. I noted it as such.
    Mr. Walsh. I know you did. It is duly noted and we will put 
that on the record.
    So if this budget is about homeland security and fighting 
terrorism, why does it propose reductions in the very areas of 
science that give us the technological edge?
    Dr. Colwell. Let me first very quickly answer the question. 
We have had to set priorities simply because the areas of 
computer science, engineering and mathematics underpin all of 
science, and I agree completely with you that, indeed, it is 
the fundamental advances in chemistry and physics and basic 
biology, computational biology and engineering that have led to 
the prosperity of the country and the ability to fight a war 
effectively and in essence provide the standard of living that 
we enjoy; but we do have to ensure that all of the sciences and 
engineering advance, and by setting priorities, we believe we 
are able to do this.
    Let me comment very briefly, that is, make a personal note 
here. In the past two weeks, I have witnessed what medical 
advances have accomplished. My newborn granddaughter spent two 
weeks in a critical care unit, and she is now well and at home. 
But in that critical care nursery, I watched what was being 
done for my granddaughter and observed that if you removed the 
bassinets, you would have been in an electrical engineering and 
computer science laboratory. In effect, the advances that have 
been made in medicine do trace back to physics, chemistry, 
biology.
    So in a poignant, very personal way, I would say that I do 
not begrudge a penny spent by NIH, but I do believe that we 
have to invest in the basic sciences in order to keep those 
advances continuing.
    Thank you.
    Mr. Walsh. I agree. Does it really make sense for us to 
earmark the increased appropriations for a small number of 
relatively new specific research areas when the result would be 
a reduction of core science activities?
    Dr. Colwell. You have to understand that by investing in 
nanotechnology, the investments are made across the Foundation. 
All of the core areas participate in pushing the nanotechnology 
frontier forward. If we do not invest, for example, in 
nanotechnology; if we are not the leaders in nanoscience, then 
we risk not having the return on the investment that will 
accrue in the future, that will keep our country strong, that 
will allow those instruments, for example, that I saw in that 
critical care nursery to be miniaturized, to be less intrusive, 
and be more effective.
    So we have to make these investments, understanding that 
the core areas participate in leading the priority areas 
forward.

                     MAJOR RESEARCH INSTRUMENTATION

    Mr. Walsh. Let me move to another area, specific area of 
concern: instrumentation. The budget cuts nearly 30 percent out 
of the NSF program and uses those funds for a new program 
called the Science of Learning Centers. If the President is 
talking about economic development as a key item in his budget, 
and instrumentation is clearly a way to help stimulate a part 
of the high-tech economy, what is the rationale for the 
reduction in instrumentation?
    Dr. Colwell. You point to something that is very critical, 
and that is that there needs to be a balance ofpeople, ideas, 
and tools. We have approached our mission in as simple, straightforward 
understandable way as possible, and, indeed, you touch on a point that 
is very, very important.
    Tools do drive discovery. Tools do play a major role for 
graduate students to learn and to become professionals in their 
scientific disciplines. The investment in tools is very 
important, and it needs to be enhanced in future years.
    Right now, we have to address the most critically important 
needs of the country, which was pointed out in the Hart-Rudmann 
report, ``National Security in the 21st Century,'' very 
effectively that second to an attack on one of our major 
cities, which has occurred, would be to concede leadership in 
training our workforce, in science and math education.
    So, again, we are responding to priorities.
    Mr. Walsh. Well, let's talk about some other priorities, 
and this is for Dr. Kelly. Thank you, Dr. Colwell.
    Dr. Colwell. Yes.

                PRIORITY SETTING FOR MAJOR CONSTRUCTION

    Mr. Walsh. Priority setting for major construction 
projects: in October of last year the Board adopted a 
resolution identifying its highest priorities for major 
construction. ALMA, EarthScope, and NEON were at the top of the 
priority list. Then a month later, in November, the Board 
issued guidelines for priorities among major construction 
projects. In that document, the Board said:
    ``Once project construction commences, the highest priority 
is given to moving a project forward through multiple years of 
construction in a cost-effective way and is determined by sound 
engineering and as long as progress is appropriate. It is most 
cost-effective to complete initiated projects in a timely way 
rather than to commence new projects at a cost of stretching 
out in-progress construction.''

                    HIGH ALTITUDE RESEARCH AIRCRAFT

    Working from the Board's own guidelines, would you agree 
that the High Altitude Research Aircraft Project fits the 
Board's definition of a high-priority project already underway, 
since the Congress has already appropriated about two-thirds of 
the funds needed for acquisition and outfitting the aircraft?
    Dr. Kelly. Yes. I believe, basically, that projects that 
are underway should be completed, and that should be a very 
high priority. That cannot be an absolute blanket endorsement, 
because there are things that could change in the environment 
that may lead to changes in thinking with respect to specific 
technologies or specific interests.
    But all other things being equal, you want to put a very 
high priority on completing the projects. The notion of a half-
finished airplane is not a very attractive notion.
    Mr. Walsh. And all things are equal, obviously, because 
that is what priorities are about. So is it safe to say that 
that research aircraft is among the highest priorities of the 
National Science Board?
    Dr. Kelly. Yes. All of the projects that are underway are 
in that high-priority category.
    Mr. Walsh. Some are higher than others?
    Dr. Kelly. That is always the case.

                   ICE CUBE NEUTRINO DETECTOR PROJECT

    Mr. Walsh. Given the National Science Board approved the 
Ice Cube Project, it also has received appropriations to begin 
planning and construction. Would you characterize this project 
as among your highest priorities?
    Dr. Kelly. Yes. I would characterize it as a high-priority 
area. That is a good example, because there are elements of 
that project that have to be proven and can only be proven by a 
substantial expenditure of funds. If the drilling takes place 
in a successful way, then that will remain a very high-priority 
project. If it does not, that is one of the ones that even 
though we've spent some money, it would be wise not to continue 
the process.
    Mr. Walsh. Doctor, as you are likely aware, there is some 
concern on the subject that you are varying the way in which 
priorities are set for the major construction and equipment 
projects. Beyond the Board's review of individual new starts 
for this program, how does the Board evaluate potential new 
starts as part of the annual budget development process, and 
how does the Board advise the Director of its views?

       SYSTEMATIC PROCESS FOR RANKING MAJOR CONSTRUCTION PROJECTS

    Dr. Kelly. Well, there is a systematic process through 
which all of the various projects are then vetted. Coming from 
the Director then is a number of projects worthy of 
consideration. That goes before the Board. The Board then ranks 
those projects according to priority and approves or 
authorizes, including in the budget those projects where there 
is funding available.
    Once again, there are large numbers of--we had that zeroing 
out of projects last year, creating this pipeline problem, and 
I am not sure it is a process problem at all in terms of how 
the Board does its work. I think it is a funding problem, and 
the problem has been a lack of resources to fund some 
extraordinarily important activities.
    Just relating it back to nanotechnology, a different item 
clearly, but you mentioned it before, nanotechnology in my 
personal judgment is going to be the most important driving 
force in this economy, outstripping information technology, 
what it did in the last decade of the last century. It is 
critical that we be number one in the world in that, and that 
gap is closing with other countries because of our underfunding 
and their concentrated funding in a few select fields, such as 
nanotechnology.
    We have the same problem with major research equipment. 
Until this country comes to grips with the notion that the key 
driver to the economy is basic science, and that these 
investments must be made, we are going to have these kinds of 
problems.
    But we rank the projects that come before us by priority 
and then we allocate those for approval where there has been 
resource availability.
    Mr. Walsh. Thank you. Mr. Mollohan.
    Mr. Mollohan. Thank you, Mr. Chairman.
    Dr. Colwell, Dr. Kelly, I know that you sense a concern or 
interest on the part of Congress, certainly this Committee, at 
your budget request and the feeling that it is inadequate. Last 
year, under the strong leadership of our chairman, Chairman 
Walsh, the Congress provided a nine percent increase in your 
budget, the year before, a 12 percent increase.

                 ADEQUACY OF NSF FY 2003 BUDGET REQUEST

    Science research apparently is a priority of this 
Administration. You certainly see that in the $3.7 billion 
increase requested for the NIH, but the budget request for the 
National Science Foundation for 2003 clearly does not reflect 
that kind of support within the Administration for the basic 
research that NSF sponsors.
    Can you speak to that and explain why the Administration is 
asking for such a disproportionate amount of money in one 
account while your accounts are almost flat?
    Dr. Colwell. I can only say that relative to the 
otherscience agencies and domestic spending, the National Science 
Foundation is singled out for enhanced funding.
    Mr. Mollohan. Is singled out for enhanced funding?
    Dr. Colwell. In the sense that the percent increase is 
larger than that of the other science agencies. It addresses 
our priorities. What I am very, very pleased about is that the 
budget provides increased funding for graduate student 
stipends, which is absolutely critical. It provides for 
enhanced funding in mathematics. Our priorities have been met.
    Mr. Mollohan. Maybe I did not understand your testimony. 
You are saying that the National Science Foundation funding 
will be enhanced this year?
    Dr. Colwell. It is increased, yes. Five percent is greater 
than that for domestic agencies, but not compared to the 
Defense Department and NIH.
    Mr. Mollohan. That was not exactly my question. My question 
was that in these other science accounts the Administration has 
asked for robust increases in funding, and in your accounts, 
the National Science Foundation, I do not see that. Am I 
missing something?
    Dr. Colwell. Well, I do believe that there is an addressing 
of the priorities of the National Science Foundation in this 
budget, and I do believe that compared to other science 
budgets, we have done very well.
    Mr. Mollohan. Well, actually, NIH, the request is for a 15 
percent increase.
    Dr. Colwell. Yes.
    Mr. Mollohan. And for NSF, it could be argued that you are 
hardly covering inflation or current services.
    Dr. Colwell. Yes.
    Mr. Mollohan. I am asking you to speak to that issue.
    Dr. Colwell. I think you would have to ask the NIH 
director. I cannot answer to the NIH budget. I can only say 
that I believe very strongly that basic research is critical 
and important, and investment in science and technology, we 
both agree, is absolutely important.
    The NSF can always use more money. There is no question 
about that, but I think this budget addresses our immediate 
needs.
    Dr. Kelly. Our future long-term needs for the economy 
involving material science, nanotechnology, and things of that 
nature are substantial. My own personal belief is that the only 
way we are going to eliminate the enormous transaction costs 
that relate to September 11th is through new science and 
technology. I think the goal we outlined to you all last year 
and the year before, and which you agreed with in spirit and 
did the best you can to doubling the budget over a five-year 
period, is critical to the national interest. We are going to 
fall behind unless we start making these steps.
    Mr. Mollohan. You still support that trend line?
    Dr. Kelly. Yes.
    Mr. Mollohan. In spite of this budget request?
    Dr. Kelly. Absolutely.

       PROPOSED TRANSFER OF SEA GRANT AND OTHER RESEARCH PROGRAMS

    Mr. Mollohan. The Administration's budget has a number of 
requests to shift programs among agencies. One of them is 
shifting the Sea Grant Program, which is a program funded by 
NOAA, currently funded through another subcommittee that I sit 
on. The proposal is to shift the Sea Grant Program to the 
National Science Foundation. There are a couple of others, 
including the Environmental Education Program run by EPA. That 
is a $9 million program. And then there is the Toxic Hydrology 
Program at the Geological Survey.
    Most of these grant programs, research programs, as I look 
at them tend to be subject specific and very much in accord 
with the jurisdiction of the agencies that now manage them. Did 
you request that these programs be brought into NSF?
    Dr. Colwell. As the director, I did not.
    Mr. Mollohan. Were you asked your opinion about whether it 
would be wise to transfer those programs to NSF?
    Dr. Colwell. The discussion about the transfer of the 
programs concerned the administrative excellence of the 
National Science Foundation and our ability to carry out the 
best peer review process, I think personally, in the world. The 
National Science Foundation procedures for handling merit-based 
review is being emulated in other countries from Europe to 
Asia. I have had visits from leaders of foundations who have 
adopted NSF procedures.
    Mr. Mollohan. Right.
    Dr. Colwell. So I think the underlying justification is the 
excellence of the administration of NSF and particularly of the 
merit-based process.
    Mr. Mollohan. Are you suggesting that the administration of 
these grant programs by these other agencies was lacking?
    Dr. Colwell. No, simply that the approach that NSF takes is 
different and is one that is considered to be laudable and 
emulated.
    Mr. Mollohan. Are you offering that as justification in and 
of itself----
    Dr. Colwell. I think it is the----
    Mr. Mollohan. Please let me just finish the question.
    Dr. Colwell. Sure.
    Mr. Mollohan. I know that you are really anticipatory, and 
I am sure that is a function of your bright mind. If I could 
just get my question out.
    Dr. Colwell. I am sorry.
    Mr. Mollohan. Is that your answer to that question, that--
--
    Dr. Colwell. We have worked with these other agencies, 
should the transfers take place----
    Mr. Mollohan. I know, but is your answer that you are 
terrific in managing these programs justification in and of 
itself for transferring these programs?
    Dr. Colwell. No. I think it is the merit review process 
that we carry out.
    Mr. Mollohan. That is what I am asking you. Are you 
offering the merit review process as the justification in and 
of itself for the necessity of transferring these programs from 
these agencies to NSF?
    Dr. Colwell. I am not offering that to you, sir.
    Mr. Mollohan. Well, that is your answer to me.
    Dr. Colwell. I am saying that the transfer of the programs 
is based on the way NSF does business.
    Mr. Mollohan. All right. Are there other advantages for 
those programs to stay in these other agencies, for example, 
maybe because these grant programs are particularly targeted to 
the mission of these agencies?
    Dr. Colwell. Let me point out, sir, that the Sea Grant 
program actually originated in the National Science Foundation.
    Mr. Mollohan. Okay. But is that an answer to my question?
    Dr. Colwell. No, sir. Let me finish. The EPA Environmental 
Education Program is quite parallel to the environmental 
education programs being carried out in the National Science 
Foundation, and some of the toxicology work that we are doing 
can be aligned very closely. So there is a reasonableness for 
this.
    Mr. Mollohan. I do not disagree that you can make an 
argument. I guess I am asking you to make the argument for the 
agency that these programs are being transferred from. Is there 
any argument that you think is legitimate that these programs 
stay in these agencies because they are particularly targeted 
for their missions and support the missions of these agencies?
    Dr. Colwell. We work very closely with other agencies in 
the kinds of activities----
    Mr. Mollohan. So you want these programs?
    Dr. Colwell. I think the programs need to be continued.
    Mr. Mollohan. I know, but you sound like you want them. You 
sound like you are arguing for them.
    Dr. Colwell. I am simply giving you the rationale for the 
programs.
    Mr. Mollohan. For the programs? You are giving me the 
rationale for the programs or the rationale for moving them?
    Dr. Colwell. For the programs.
    Mr. Mollohan. The rationale for the programs.
    Dr. Colwell. For the programs.
    Mr. Mollohan. What rationale would you give me for moving 
them?
    Dr. Colwell. I can only say the programs do match with the 
work that we are doing, and if Congress chooses to transfer 
them, we will do the best----
    Mr. Mollohan. It is something you are out there fighting 
tremendously to have?
    Dr. Colwell. Compared to the need for funding in 
nanotechnology, biocomplexity, fundamental physics, math, 
chemistry, I would have to tell you that it is not my highest 
priority.
    Mr. Mollohan. Okay. Thank you, Dr. Colwell.
    Thank you, Mr. Chairman.
    Mr. Walsh. Thank you. Mr. Frelinghuysen.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Dr. Colwell, good morning.
    Dr. Kelly, thank you for your service. I noted you started 
your government service with some intermittent work back in the 
private sector back in 1968.
    Dr. Kelly. I wish you had not said that.
    Mr. Frelinghuysen. I was a mere lad then.
    Mr. Walsh. Still a mere lad.
    Mr. Frelinghuysen. Thank you very much.

                           VISIBILITY OF NSF

    As was true last year, Dr. Colwell, I continue to worry 
about the public perception that the National Institutes of 
Health are the favored institutions, and the NSF is favored, 
but less so. I am particularly concerned, as I was last year, 
about what are we doing about it. What are you doing about it? 
You are the head of the controls of this agency.
    Dr. Colwell. We are doing a number of things that I think 
are really very important.
    Mr. Frelinghuysen. I am still waiting for the list of the 
Nifty 50. You mentioned last year that you were going to give 
us a list of 50 projects that you were particularly raising the 
visibility on.
    Dr. Colwell. I am sorry. That should have been given to 
you. This is available as a brochure.
    Mr. Frelinghuysen. No. The problem here, as I understand 
it, is that people get very excited about the National 
Institutes of Health because there are vast advocacy groups 
that are out there. Your advocates are professors and basic 
research people, and they are less, perhaps, active in 
promoting the NSF.
    Dr. Colwell. I think there is a change taking place.
    Mr. Frelinghuysen. I can tell you that this Committee has 
done more to put you on the map. I want to know what you are 
going to do.
    Dr. Colwell. We have developed an active program which Curt 
Suplee heads at the NSF, developing rapport with the scientists 
that allow us to make announcements of scientific advances. We 
also are developing a web-based site to highlight daily 
advances and discoveries being made in science and engineering.
    Mr. Frelinghuysen. You are basically saying we do not have 
one now?
    Dr. Colwell. We have it, but we are expanding it and we are 
improving it. We are also expanding our informal science 
education investments, working closely with science museums, 
with providing IMAX-type films and also providing releases on 
the kinds of discoveries that are being made. We have taken a 
much more active position. In fact, if you saw the Washington 
Post the other day, there was a lovely half-page on NSF work in 
the Antarctic, including modernization of the South Pole 
station.
    There is a great deal of interest in science. We bring 
teachers to the South Pole, and we use the experience in the 
Antarctic as a mechanism for linkage to classrooms so that 
children know what is going on there. We have cosponsored 
programs with Bob Ballard who is an excellent example of 
someone bringing children to the bottom of the ocean 
figuratively speaking. We are working very hard on this, and I 
have taken your advice. So we are moving on this.
    Mr. Frelinghuysen. Well, I think you need to raise your 
visibility level. I know that you are not allowed to, quote, 
lobby Congress, but I can tell you through our doors come 
plenty of people that have led, perhaps, to the enhancement, 
i.e., more money, the doubling of the budget for NIH, and I do 
not feel that people have geared up to do likewise for you.
    Dr. Colwell. I think that is changing. My sense is that the 
connection between the advances in medical research and the 
advances in health, for example, and the ability to carry out 
the kind of modern warfare that the United States has 
successfully done, was not due to NIH research. That was due to 
NSF research and research in basic, fundamental science. It is 
these connections that we really need to focus on.
    Mr. Frelinghuysen. Not only need to focus on them. We need 
to make them when it is appropriate, because the public 
perception here is not as great as it should be. You deserve 
far more credit. You have got a lot of hardworking people. You 
are in 22,000 different universities and colleges, and I am not 
suggesting that people ought to spend vast amounts of money 
promoting themselves, but obviously universities do it all the 
time. They should not forget their basic research goals.

                       INTERDISCIPLINARY RESEARCH

    A couple of other general questions. Your predecessor 
always lamented the fact that in the early days chemists, 
biologists, and physicists often did not work together, 
thatthey were all off on a very narrow research frame.
    Dr. Colwell. Yes.
    Mr. Frelinghuysen. What progress have we made in terms of 
what both you and Dr. Kelly referred to as interdisciplinary? I 
assume this is cross-pollinization. Is it sharing of 
information? You are at the helm of the NSF. To what degree is 
it occurring?
    Dr. Colwell. Now, there I can give you chapter and verse. 
We are really moving very strongly into interdisciplinary 
science, because that is where the cutting edge is, and in 
fact, it is represented in the information technology priority 
area. It is reflected in nanotechnology, which is really the 
merging of biology, biotechnology, computer science, and 
engineering. It is a very effective interdisciplinary 
technique.
    Mr. Frelinghuysen. If it is that effective, why is it 
ranked No. 2 in terms of your six priorities for expenditures? 
You have $221 million for nanotechnology research and $286 
million for information technology research. Who set that 
priority? I thought nanotechnology was where we are going.
    Dr. Colwell. We are in the fourth year of a five-year 
priority in information technology. That reflects the setting 
of a priority three or four years ago, and it continues to be a 
top priority because it undergirds all of science.
    Mr. Frelinghuysen. I am talking about the specific amounts.
    Dr. Colwell. Right.
    Mr. Frelinghuysen. Is there any significance in the fact 
that nanotechnology gets less than information technology?
    Dr. Colwell. No, because the total requested for 
information technology includes some of NSF's investment in 
infrastructure.
    Mr. Frelinghuysen. This is the advanced computing 
component?
    Dr. Colwell. Yes. So when that funding is taken into 
account, then you see that the two are fairly comparable.
    Mr. Frelinghuysen. One specific question: Ninety-four 
percent of your research awards are made through competition 
based on merit review. What is the other six percent? What is 
that based on?
    Dr. Colwell. That is the overhead. That is running the 
agency. I would say it is always dangerous to offer something 
you have not been asked, but I would venture to say that we are 
one of the most efficient agencies in the government.
    Mr. Frelinghuysen. You have gotten very high marks.
    Dr. Colwell. Yes, sir.
    Mr. Frelinghuysen. And there too, a lot of people do not 
know that, and that is something to be proud of.
    Dr. Colwell. Thank you.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Walsh. Is that what the lapel pin is all about?
    Dr. Colwell. Yes, sir. My staff gave the pin to me, and I 
proudly wear the green dot.
    Mr. Walsh. Duly noted, that NSF has the green light.
    Dr. Colwell. Thank you.
    Mr. Walsh. Mr. Price.
    Mr. Price. Thank you, Mr. Chairman.
    Dr. Colwell, Dr. Kelly, thank you for your testimony and 
for being here this morning.

                         BASIC RESEARCH FUNDING

    Apropos the earlier discussion about the virtual flat-
lining of the NSF budget request, you may recall that a year 
ago when we faced a similar administration budget proposal, the 
former director of the NIH, Dr. Varmus wrote a letter that was 
widely circulated. What that letter basically said was that we 
did medical research no favors--medical research.
    Dr. Colwell. Yes, sir.
    Mr. Price. We are flat-funding basic research at NSF even 
as we substantially increase NIH funding for the simple reason 
that NSF funding research feeds in many, many ways into the 
medical research funded at NIH and elsewhere. Do you basically 
agree with that assertion?
    Dr. Colwell. Sir, I would respond by quoting Dr. Varmus 
again in which he said there is no wizardry in medicine. If you 
pull aside the curtain, there are physicists, computer 
scientists, and chemists pulling the levers. Yes, indeed, it is 
very, very important for us to have the investment in basic 
research that is parallel with the National Institutes of 
Health.

                        GRANT SIZE AND DURATION

    I would also answer, sir, that we are doing a study right 
now at the request of OMB of grant size and duration, and that 
report will be ready about the 6th of May. We are incredibly 
pleased with the response. We have sent it to about 600 
institutions and nearly 6,000 individuals. From the 
institutions as of a few days ago, we had 85 percent response, 
and from the individuals, more than 90 percent response. This 
is unheard of in surveys. We are getting some very, very good 
information which we will be pleased to share with you, with 
respect to the need for increased grant size and duration.
    Mr. Price. Let me ask you then: I understand that grant 
size has actually declined over the last several years in real 
terms.
    Dr. Colwell. No, sir.
    Mr. Price. Well, the figures I have: The average NSF grant 
has declined over the past several years, the average grant in 
the Year 2000 being only $93,000, lasting just under three 
years, and then at the same time, approximately 13 percent of 
highly-rated proposals to NSF are not funded due to a lack of 
resources. There is obviously a tradeoff between not funding 
meritorious proposals and this reduction in grant size, we are 
apparently addressing neither.
    That is what is behind my question. How can we argue or how 
can the administration argue that they are promoting this 
critical medical research when you are dealing with this kind 
of situation at NSF with regard to basic research, the 
foundation on which much of the research rests?
    Dr. Colwell. Let me answer the question. In 2001, the 
average grant size was $113,601. This year, 2002, the average 
grant size will be about $113,000, and with the 2003 budget, we 
hope to raise the average grant size to $125,000; but, sir, 
still that does not compare as favorably as we would like to 
what appears to be, at least my best estimate, of an average 
grant size at NIH of $360,000.
    And duration is also very important. At the present time, 
our grant duration is about 2.9 years. I believe the NIH 
average duration of a grant is closer to four years. We surmise 
that getting close to the NIH average grant size would be 
beneficial for the National Science Foundation research 
programs, and we would surmise that probably a five-year grant 
period (time needed to graduate a Ph.D.) might be the target 
for the future.
    Dr. Kelly. In the context, it is a mystery to me how it is 
not self-evident that all applied research, whether it be in 
medicine, health, or defense or any other area of applied 
research is based on a foundation of basic research.
    Mr. Price. That would seem self-evident. That is the reason 
for my question.
    Dr. Kelly. Yes, sir.

             ADVANCED TECHNOLOGICAL EDUCATION (ATE) PROGRAM

    Mr. Price. All right. Let me turn to another of your 
programs and one that I have had a special interest in that I 
think is also underemphasized in this budget proposal. That is 
the Advanced Technological Education Program.
    Dr. Colwell. Yes.
    Mr. Price. The main NSF program, if not the only one that 
is aimed at advanced technical training and at our Nation's 
community colleges, your budget proposal recommends a $950,000 
funding reduction for the already small ATE program. That is a 
2.4 percent cut. The justification indicates that this 
reduction will result in four fewer projects in Fiscal Year 
2003 and in 3,000 fewer well-prepared technicians prepared to 
enter the workforce.
    Now, I initiated a bill some years ago that established 
this program. I strongly believe in the program and have tried 
to look out for its funding on this committee. And we have had 
incremental increases over the years. Most years, we have been 
able to eke out modest increases. So this is unwelcome news.
    Dr. Colwell. Yes, sir.
    Mr. Price. I will stress that with you. I am disturbed at 
the funding cut, particularly because I think at Mr. Cramer's 
instigation we included language in the report accompanying 
last year's bill underscoring the importance of the ATE program 
and urging NSF to strengthen its outreach to community 
colleges.
    I remember that when we first initiated the ATE program, 
the NSF in all of its programs was spending a grand total of 
maybe $1 to $2 million at this level of education, doing a lot 
with advanced research, doing increasing amounts with public 
education, but leaving out this level of advanced training. Now 
the ATE program, as modest as it is, has begun to overcome 
that.
    So why the cut? With all of this in mind, how would you 
rate the success of the ATE program? Does the funding reduction 
in any way reflect on the performance of these grants? Does it 
reflect any reduction in the demand for the grants? What 
explains the cut?

                       RULE OF COMMUNITY COLLEGES

    Dr. Colwell. I can only answer that it is with pain that we 
made the 2.4 percent reduction in order to address higher 
Administration priorities, but I would also add that we 
recognize community colleges as being one of the most important 
areas to make investments. Our budget includes added investment 
in science and math education, both through instrumentation and 
through enhanced programs in the community colleges, because 
that is where the human resource talent that we will need in 
the 21st century is located.
    So you ask a very poignant question.
    Mr. Price. Well, I think maybe for the record it would be 
useful to have some indication of what these other avenues are, 
what they amount to.
    Dr. Colwell. I would be happy to provide that.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Price. These avenues for reaching out to community 
colleges and strengthening their programs. I think it is fair 
to say that those do not replace the ATE-type program which is 
aimed at enhancing exemplary curriculum development, teaching 
methods, and curricular development programs.
    Dr. Colwell. May I just add, sir, that you are quite right. 
Another step that we are taking is developing mechanisms for 
determining their success, in order to justify increases in the 
future.
    Mr. Price. So what about the demand side on this program? 
Does your proposed reduction reflect any reduced amount or any 
reduction in the meritorious proposals coming in?
    Dr. Colwell. No. I would say that the quality of the 
proposals remains high.
    Mr. Price. There, too, I think for the record, it would be 
helpful to provide some indication of the number of meritorious 
proposals and how you would evaluate them and how that compares 
to the funding availability and any relevant information about 
average grant size and the kinds of information one would 
normally want to assess the adequacy of the funding stream for 
the demand that you are dealing with.
    Dr. Colwell. I would be very happy to do that, sir.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Price. Mr. Chairman, is my time up?
    Mr. Walsh. You have half a minute.
    Mr. Price. Well, let me ask one more question along these 
lines. That has to do with the role of the community colleges 
in preparing math and science teachers. We are going to need 
2.4 million teachers in this country in the next decade. 
Nothing we are talking about in education is going to amount to 
much if we do not have a first rate teaching force.
    I do not think we have any idea where those teachers are 
coming from. One source might be, and I think could be, our 
community colleges where people involved in two-year training 
could be encouraged to go on to the full four years and get 
certification. That of course requires not just support for 
those students, but also improved articulation between two- and 
four-year programs.
    Is there more NSF could be doing with community colleges in 
that area to enhance the community colleges' contribution to 
our teaching recruitment efforts?
    Dr. Colwell. The answer is a thundering yes, and we are 
focusing on that. We are looking at the community colleges as a 
very important workforce source, and we are looking at ways of 
providing improved teaching through providing knowledge of the 
subject that the individual teacher will be teaching. That has 
been identified as a necessary direction, to ensure that 
teachers are trained in the subject in which they are assigned 
to teach. Math and science education absolutely critical.
    So by strengthening the content of the curriculum for 
teachers trained at the community colleges, we make a major 
contribution to better teaching.
    Mr. Price. Thank you. Thank you, Mr. Chairman.
    Mr. Walsh. Thank you. Mr. Knollenberg.
    Mr. Knollenberg. Mr. Chairman, thank you very much, and 
welcome, Dr. Colwell and Dr Kelly.
    Nanotechnology, did that come this morning? I came in a 
little bit late.
    Dr. Colwell. Yes.

                   NANOSCALE SCIENCE AND ENGINEERING

    Mr. Knollenberg. Let me just address it from a couple of 
perspectives. It is a field that creates a lot of excitement. I 
have been to some of the national laboratories and I have seen 
some of the activities that are taking place. What I do not 
know is how much money is really going specifically into 
nanotechnology, and I know that they predicted this is one of 
the colossus of the 21st century, and I hope that it is.
    I also know that there is a thing called basic research and 
applied research, and if you are looking right now at--I guess 
you are looking at the basic research at this point, because 
you have got nothing that you have really singled out, have 
you, that you are moving forward on?
    Dr. Colwell. Yes. There are some.
    Mr. Knollenberg. But some of the things that I read about 
say it is 10 to 20 years away at least and maybe longer. In 
fact 10 to 20 years is a short period of time.
    Dr. Colwell. I think it is much shorter, sir.
    Mr. Knollenberg. With respect to medicine, for example, 
what can we expect? I see Dr. Kelly shaking his head the other 
way.
    Dr. Kelly. I was agreeing with the Director. I think it is 
a much shorter time horizon.
    Mr. Knollenberg. How short?
    Dr. Kelly. I think there are products on line already in 
commercials. So it depends upon which area of industry you are 
talking about and which specific kinds of products, but you 
have commercial nanotechnology operating in the oil industry, 
in parts of the medical industry. It is not something that is 
going to--that starts on some day. It is a continuous process 
of growing, expanding, and increasing.
    Dr. Colwell. Let me give an example. I think we already 
have electromechanic motors which are about the size of a red 
blood cell. That is how small we are getting down in dimension, 
to the very minute, the very small. I would also like to use an 
example, as a microbiologist, that is no surprise to me, 
because a microorganism, a bacterium is about 125,400th of an 
inch. It has a little tail (a flagellum) that propels it 
through water. The motor for that tail is about one-hundredth 
the size of the cell.
    So we already have models that we can work from as we build 
these new structures.
    Mr. Knollenberg. What is NSF's percentage of the overall 
National nanotechnology initiative? Who is this funded through? 
DOD, for example?
    Dr. Colwell. Yes, and several other agencies, including 
NSF.
    Mr. Knollenberg. Can you tell me how much we are spending 
generally, and how much of that is in the NSF budget?
    Dr. Colwell. NSF is the lead Federal agency. We are 
spending about $221 million, roughly, and the overall effort is 
probably in the range of a half a billion dollars. I would 
hasten to add that we have learned that nearly a billion 
dollars is being spent in nanotech by the combined Asian region 
countries.
    Mr. Knollenberg. Consisting of?
    Dr. Colwell. Japan and South Korea, etc.
    Mr. Knollenberg. So we are short?
    Dr. Colwell. Yes, sir. And that is not counting Europe.
    Mr. Knollenberg. Assuming that you have to go through the 
basic research process first, do you have any kind of 
measurements to qualify something that is moving along in a 
successful fashion before you start to explore any kind of wide 
research?
    Dr. Colwell. Actually, this comes in the form of proposals, 
sir. They are reviewed and the panel can assess success of 
productivity, and that is part of whether or not it gets 
renewed for the next round. We do not just automatically 
continue funding--because you were funded once, you do not 
automatically get funding for the rest of your life. You have 
to come in every couple of years to show what you have done, 
and if it measures up, then you get funded again.

                      COST VERSUS LEVEL OF SUCCESS

    Mr. Knollenberg. For example, you cannot--I should not say 
you cannot, because maybe you can. In terms of long-term 
investment with respect to a given discipline, whatever it 
might be, can you estimate the long-term cost, Federal cost, 
that would produce, let's say, a level of success?
    Dr. Colwell. You can do that by retrospectively analyzing, 
for example, the investments made 20 years ago in computer 
design and architecture, etc., and thenwhat has come from that. 
So you can make a kind of estimate, and some economists--and I have one 
sitting to my right. I will not quote him, but I will quote Alan 
Greenspan who would say that 70 percent of productivity is due to 
science and technology innovation. Other economists are more 
conservative and say 30 percent.
    And I will ask my chairman what he would say.
    Dr. Kelly. I do not know why you picked Alan Greenspan over 
me to quote.
    Mr. Knollenberg. Maybe there is a reason.
    Dr. Kelly. But there is a huge range in the studies. In 
fact, the study I mentioned earlier, setting priorities for 
Federal investments in R and D, addresses this question 
specifically. How do you set up a process and what kind of 
information do you need in order to make those kinds of 
calculations. And we really do not have a very good database or 
data. It is very, very difficult to cleanse in order to make 
very analytical scientific statements about the rates of return 
and cost of capital for the specific investments.
    We have been able to work only in broad categories at this 
point, and even there, there is a variance in the estimates, 
but a central point seemed to develop, a relatively common, a 
more generally-accepted number of the entire range is about a 
30 percent rate of return on investments in basic science.
    Mr. Knollenberg. It is a tough question that I am asking 
you here. It is tougher on you because you are supposed to 
respond. It would be nice to think that we were getting 
somewhere with nanotechnology in a way that would appeal to 
these plain minds, like my own. We would like to think that we 
would see something projected over time that would at least 
allow us to put the brakes on it if the thing is not coming 
into any fruition.
    Dr. Colwell. Well, I think we can help, because we are not 
just throwing money at it. We have selected areas like 
biosystems. That was the motor I was talking about. Small-scale 
structures, nanotools. When you build structures, you have to 
use stronger materials and make more effective application of 
the materials. Device architecture comes to mind, of the sort 
used for the medical applications. Processes in the environment 
use sensors, which of course provides an application in 
bioterrorism detection. Manufacturing processes on the 
nanoscale, we see the size of the manufacturing process being 
reduced, because you can use smaller components in the system.
    We have targeted areas, and we have looked at the grand 
challenges that these provide. Again, we assess these year by 
year so that we do not get into an unproductive rut.
    Mr. Knollenberg. So you can help us help you in terms of 
where to go, perhaps, year after year after year.
    Dr. Colwell. I think we can.
    Mr. Knollenberg. All of this is very glorious stuff. They 
are talking about speeding up the speed of a computer in a 
business. I am not sure if we can adjust to that kind of speed, 
but those are things that are fantastic. And, of course, the 
medical side, I have seen some of that application.
    So it is just a matter of we are doing this step by step, 
year by year, and we are doing it together, apparently.
    Dr. Colwell. Yes.
    Mr. Knollenberg. I do not think--there are some exceptions, 
maybe, at the table--that any of us have that capacity to 
assimilate the data and know that we are doing the right thing 
today on a project that may not produce success for 20 years or 
10 years.
    Dr. Kelly. Congressman, there is a three-day, major three-
day conference going on in New York City in the middle of May, 
a venture capitalist, and the subject is only nanotechnology.
    Mr. Knollenberg. What three days and where?
    Dr. Kelly. I will get you that information, but it is in 
New York City, and off the top of my head, I would say May 
17th, but I will need to get you that information.
    Dr. Colwell. I would like to have that information also.
    Mr. Knollenberg. That concludes my questions. I appreciate 
it.
    Mr. Walsh. Thank you. Mr. Cramer.
    Mr. Cramer. Thank you, Mr. Chairman.
    Welcome, Dr. Colwell, Dr. Kelly, welcome back to the 
Committee and welcome to your fine staff as well. I want to 
revisit some of the issues that members have brought up, 
particularly David Price, on community college outreach by NSF. 
I brought that up in previous years that you have been before 
this Subcommittee.

                     OUTREACH TO COMMUNITY COLLEGES

    I listened to you a few minutes ago describe how you think 
you are strengthening your relationship or your outreach to 
community colleges, but could you be specific and give me some 
examples of ways that you are reaching out to community 
colleges?
    Dr. Colwell. We are developing mechanisms--I should ask 
Judith Ramaley to answer. She could be more specific.
    Mr. Walsh. Can you give us your name and title for the 
record, please?
    Dr. Ramaley. Yes. I am Judith Ramaley. I am the Assistant 
Director for Education and Human Resources.
    I am just learning. I am going to stand up. I cannot stand 
up too far without looking at my notes, I am afraid.
    In fact, there are several things we are doing. One of the 
things we are doing is a math and science partnership. We have 
actively worked with community colleges, including the American 
Association of Community Colleges, to encourage them to be part 
of the partnership. That is one point.
    Secondly, most of the Nation----
    Mr. Cramer. Have you done that for years, or is that a new 
interest?
    Dr. Ramaley. This is a brand new program. This is the first 
solicitation. So I cannot tell you yet how many community 
colleges actually will end up participating, but we have about 
30 to 40 community colleges who are indicating an intention to 
be part of the network. I would be happy to provide that 
information.
    Mr. Cramer. Thank you. I wish you would. If you could give 
me more specifics.

   List of Community Colleges With Intent To Participate in Math and 
                       Science Partnership (MSP)

    Based on 380 (optional) Leters of Intent, 74 community 
colleges were listed as partners in 54 proposed partnerships 
from 31 different states. Of these 74 community colleges, 16 
(representing 13 states) have indicated their intent to serve 
as the Lead Partner of fiscal agent for the MSP proposals that 
are being submitted. Since the Letters of Intent were optional, 
there is no guarantee that proposals will be submitted by each 
of these institutions, and proposals may be received from other 
community colleges that did not submit letters of intent. Full 
MSP proposals were due April 30, 2002.

    But I want to come back, Dr. Colwell, and maybe you or she 
will answer this question. That new math and science 
partnership, how does that differ from previous NSF math and 
science education programs?

                      MATH AND SCIENCE PARTNERSHIP

    Dr. Colwell. We are building on our previous experience to 
develop programs that tell us the successful approaches we have 
taken in some of the previous efforts, such as the systemic 
initiatives, and we are developing linkages between them--let 
me give you one example, the Science of Learning Centers. This 
is really, for us, very important because it links just as the 
engineering research centers and the science and technology 
centers do, the K-12 school system and higher education, 
industry, and the community. It focuses on how kids learn and 
will transfer that technology to school systems.
    It also is a mechanism by which we can bring in technology, 
as a tool, not as a substitute for teaching, but as a tool, an 
enhancement of teaching. In addition, we have formed a ``Tiger 
Team'' with the Department of Education. Secretary Page and I 
have worked together to set up this Tiger Team. Dr. Sclafani of 
the Department of Education and Dr. Bordogna from the NSF 
represent the two Federal agencies, and Dr. Ramaley also 
interacts actively with the Department of Education as a member 
of the team. That is to be able to build the kinds of programs 
we develop that can be scaled up, in partnership with the 
Department of Education. It is not our task, as a fundamental 
research agency to implement the kinds of developments that 
result from the research and those studies that are carried out 
at NSF.
    Mr. Cramer. Have you set the boundaries for the 
competitions that will occur under the math and science 
partnership? How many competitions will you have?
    Dr. Ramaley. For the competition that is being held now, 
proposals will be received April 30th. So we will be able to 
give you a lot more information after then.
    Mr. Cramer. But do you know how many you are going to have 
all together?
    Dr. Ramaley. We can guess. We received over 400 indications 
of interest. How many of those will convert to proposals, I do 
not know. We will have to see.

          HISTORICALLY BLACK COLLEGES AND UNIVERSITIES (HBCUS)

    Mr. Cramer. All right. I am probably running out of time. 
Thank you.
    I want to switch over to HBCUs, and how much funding has 
NSF set aside expressly for HBCUs?
    Dr. Colwell. We have a variety of programs that address the 
issue of underrepresented minorities. For, the HBCU-up 
activity, the estimate is $14 million for 2003 in this budget. 
The HBCU graduate program, unfortunately, will be reduced and 
held in a hiatus until the next funding cycle. The Alliances 
for Minority Participation will be about $27 million, while 
Institutions of Excellence will be about $10 million. Minority 
Post-docs will be about $2.3 million, and graduate education, 
about $12 million. All together, sir, it is about $91 million.
    Mr. Cramer. Did I hear you talk about the HBCU development 
grant program?
    Dr. Colwell. The grant is $9 million.
    Mr. Cramer. Then, very quickly, you have talked about the 
average size of grants, and you expect that if this year's 
budget is approved, that that will increase to $125,000.
    Dr. Colwell. Yes.

                     ADMINISTRATION AND MANAGEMENT

    Mr. Cramer. But also your budget requests an additional $41 
million to handle your growing administrative workload. Is that 
correct?
    Dr. Colwell. Yes.
    Mr. Cramer. How do you account for that kind of funding 
increase on the administrative workload side? When was the last 
time you received an increase for the administrative workload?
    Dr. Colwell. We received new staffing levels about 10 years 
ago. We have not had new staff for 10 years, roughly, and in 
that time, the budget has doubled. The complexity of the 
proposals has increased tremendously because interdisciplinary 
research involves a whole new mechanism for approach of 
handling proposals.
    In addition, in 2001, we had 2,000 more proposals, and 
already in the first half of this year, we are running well 
ahead in the number of proposals. The numbers are going up. The 
complexity is increasing. We have addressed this over the last 
decade by going to electronic business operations, and we have 
done that to the point where we are nearly a hundred percent 
electronic now. We have proposals coming in electronically, and 
also being reviewed and processed electronically.
    Forty percent of the increase will go to upgrading 
electronic business practices and handling proposals. Forty 
percent will go to staffing, and twenty percent will go to 
enhancing the staff, i.e., career development so that we can 
keep the good staff that we have.
    Mr. Cramer. How much staff do you think you will add?
    Dr. Colwell. We will add 67 FTE in this request.
    Mr. Cramer. Thank you.
    Mr. Walsh. Mr. Hobson.
    Mr. Hobson. Thank you.

               SUSTAINED LEADERSHIP IN NANOSCALE SCIENCE

    I may be the only one--I am not sure--but I think 
nanotechnology is one of the most exciting things that has come 
on the scene since the microchip, and I think it will be the 
driver of this economy in many ways that we do not even know 
about yet in the future in the world. We have to keep our 
leadership in this. I have encouraged NASA. I have encouraged 
all my state universities to get into this, to look at this, 
and to pursue it from a basic science standpoint.
    I think sometimes we are not very patient people, 
especially business people. I am from a business background, 
and I am not very patient, and I think sometimes in the 
sciences, we have to understand that this stuff takes a long 
time. It is not always satisfying sometimes, because you are 
going to do a lot of things thatdo not work as you go along to 
get where you have got to go.
    But I really think long term how we project ourselves in 
own life here, how we project ourselves in space, will much 
depend upon the sciences being done out there today, and I 
normally do not tell people this, because I lose when I do 
this. I am a lawyer, so I do not know anything about this 
stuff, but I have been very excited by what I have seen when I 
have gone around in the various places in Ohio State. I have 
seen some of the stuff that is being done within NASA in 
cooperation with all of you. It is very exciting.

                       FUNDING RATE OF PROPOSALS

    There are a couple of other things I would like to talk 
about. I share, I think, most people's concerns that the math 
and science programs in this country need work, need help. I am 
concerned that the people, some people, may get left out in 
this, and I do not know whether there is any opening for people 
to get in if they have not done their letter of intent by March 
15th. Can they still apply?
    Dr. Colwell. Yes.
    Mr. Hobson. They can still apply?
    Dr. Colwell. Yes.
    Mr. Hobson. The other thing I wanted to talk about is how I 
can get my state's funding grants in a better shape, and do you 
have programs that help people do this? Because I am looking at 
my state, and it has only got a 26 percent funding rate of the 
applications. That leads me to believe that they are not 
getting the right information, because I look at other states 
and they are in the high thirties, and Ohio is a rather large 
state, and you have gotten 1,141 applications, proposals you 
call them, and with a funding rate of 26 percent.
    That concerns me about the quality that we are putting in, 
or maybe we do not have enough people to review them right. I 
am not sure. I am concerned, and if there is something we 
should be doing, somebody needs to be telling me, and I will go 
tell other people in the state, around the state, what we are 
not doing correctly.
    Dr. Colwell. We run regional workshops, and seems to me it 
would be very useful to run a workshop in Ohio. We ran one 
recently in Indiana where our staff, in the workshop, explain--
--
    Mr. Hobson. Indiana was at 31 percent.
    Dr. Colwell. There you are.
    Mr. Hobson. I need a workshop. I need a workshop.
    Dr. Colwell. Anyway, the process is explained.
    Mr. Hobson. Okay. I think we need to do a better job in 
Ohio. I am trying to send messages to you and to them about 
that.

                           SEA GRANT PROGRAM

    I also want to talk about the Sea Grant Program. I have got 
a question here that I want to ask you. There is a transfer 
here, and NSF's budget proposal is short on details regarding 
the transfer of the Sea Grant Program back to NSF. I want you 
to explain how this program will change with this transfer, and 
I have heard from the Sea Grant College in Ohio that they do a 
pretty good job of leveraging funds, which I like, from the 
state and local governments as well as universities for 
research specific to Ohio.
    Their feeling is that they may be in jeopardy in this 
program, and I would like to refer you to--I will give you 
this. This is an article on the research funds for Great Lakes 
and zebra mussels, and it is a proposal relating which is a 
real problem in all the Great Lakes, not just in Ohio. The 
college that is doing there seems to think that they are doing 
some pretty good work, and I am concerned about continuing 
viability in that program and also their ability to help the 
students that they help that come in there and visit the 
particular facility.
    So what kind of leveraging are you going to do to keep 
these programs alive?
    Dr. Colwell. I understand. We have been working with the 
agency and should the transfers occur, if they occur, there 
will be a transition in programs such as the one that you 
describe. It would certainly be very favorable.
    All I can say is that we have been spending some time 
discussing with the agencies what would happen, how the 
transfers would occur, if they occur. As far as the specific 
program is concerned, again, the approach that NSF uses very 
effectively is merit-based competitive review, and that of 
course is what we expect would happen with these programs.
    Mr. Hobson. As you can imagine, when anything like this 
happens, people get nervous and they panic.
    Dr. Colwell. I understand.
    Mr. Hobson. I will give you this article to read.
    Dr. Colwell. Thank you.
    Mr. Hobson. That is really all I have to ask you except 
that I do a lot with the Air Force, and they are the same way 
that the members here are saying. The Air Force is the same 
way, produce it tomorrow right now, and I can tell you those 
labs are irreplaceable at a place like Wright Patterson and 
other bases around the country. We lose the heritage of those 
labs, which is I think in great jeopardy.

                       SUPPORT OF BASIC RESEARCH

    Many of the things, the composites, over a period of time, 
the basic research that goes on, I do not think is going to be 
picked up in the universities of this country. It certainly 
will not be picked up by industry, because they cannot afford 
to do it on their balance sheets. I am really concerned about 
not only the universities, but this total infrastructure that 
is beginning to work together. We are seeing a lot more 
collaboratives in the universities and the labs at the various 
facilities that we have around the country, and I hope we can 
continue that synergy on research that may not appear 
productive today, but a lot of the stuff we are using today was 
done 30, 40 years ago, and we did not know what it was at the 
time. Some of it now becomes very relevant to the things that 
we are doing.
    So I hope we do not give up on that. I know sometimes we 
want to look for results, because that is part of our job, but 
we have to be stewards also in the long term.
    Dr. Colwell. I must say I agree with you. I really agree 
with you, sir.
    Mr. Hobson. Thank you very much.
    Dr. Kelly. Speaking of the longer term in nanotechnology, 
we are still the leaders in nanotechnology, and we are still 
the leaders in most scientific areas. The gap is closing very, 
very rapidly, and in a variety of different areas, different 
countries are starting to match us. We have not yet lost the 
leadership. Unless we change our behavior, we are going to 
start losing our leadership position in certain scientific 
areas.
    Mr. Hobson. Thank you.
    Mr. Walsh. Mrs. Meek.
    Mrs. Meek. Thank you, Mr. Chairman.
    Welcome.
    Dr. Colwell. Thank you.

            IMPROVING PARTICIPATION OF WOMEN AND MINORITIES

    Mrs. Meek. Last year, in my responses to the 
NationalScience Foundation's commitment to increasing the number of 
women and minorities in math, science, and engineering, Dr. Colwell, 
you said that NSF is trying to change the culture--that was your 
statement--to increase this participation in research programs in the 
centers we fund. I took that to mean that NSF had a way to go, quite a 
way to go, to improving minority participation, and there must have 
been some deep-seeded reasons that go to your culture. That was one 
year ago.
    I would like to know what efforts have you made to change 
that culture, and I wanted to bring to your attention that 
there has been a decrease in some of the programs that would 
have helped to improve that culture, particularly many of Louis 
Stokes alliances, which I hope to see continue forever, because 
they were good alliances, the decrease in the HBCU program, and 
I think if you are ever going to really improve that culture, 
one of the major segments of it would be the historically black 
colleges and universities.
    Would you address that, Dr. Colwell?
    Dr. Colwell. Yes, very happily, because it is an area to 
which we have paid a lot of attention. There is a decrease of 
about $4 million overall specific programs for women, 
minorities, and the disabled; however, what we are doing is, as 
with other priorities such as nanotechnology and information 
technology, we are sweeping across the Foundation and 
addressing all of the programs that we have within the 
directorates that enhance minority participation, and we find 
that it is similar to the EPSCOR model where you have targeted 
funds, but you also have funds within the directorates 
addressing this issue. We find that these enhancements more 
than offset the reduction. In fact, we have deliberately used 
this approach because we feel that there needs to be both 
horizontal integration and vertical integration in programs.
    What does this mean? It means that if we are funding 
programs that interest children, K-12, in science and 
engineering, those students ought to be encouraged to go into 
the Louis Stokes program for example. We currently are not 
tracking where the graduates of the Stokes program are going; 
are they going into industry, are they going into academia? We 
should be linking Louis Stokes graduates to other graduate 
programs. In other words, have a pathway that we can follow 
that will support and mentor students so that we can increase 
the levels of minorities and women in science and engineering.
    In addition, the specific program, ADVANCE, provides funds 
for women returning to science or engineering or women who need 
the opportunity to do their own research. Also, part of the 
program provides for an institutional program, whereby 
institutions can compete to receive funding that they can focus 
on changing the culture within their academic institution to 
bring women and minorities into science and engineering.
    We are embarking on an approach now, as I said last year, 
that looks across the Foundation horizontally and vertically in 
order to enhance participation of women and minorities in 
science and engineering.
    Let me give you another example of programs that we are 
thinking about. That is the prestigious Graduate Research 
Fellowship program. It turns out that we are continuing to see 
20 to 25 percent minority participation, and that is 
significant, because it is a highly competitive program. If we 
were able to double that program, and we are looking at this 
for out years, we would automatically double the number of 
minority Ph.D.s because of the number of minorities who apply 
now are very good candidates and would be expected to be 
successful.
    We are looking at all of the programs we carry out, and 
those that are successful will be enriched.
    Mrs. Meek. Dr. Colwell, you are a scientist and I am not, 
but minorities make up 25 percent of the population in this 
country, and only seven percent of your programs are addressing 
that. Mathematically, there is something wrong with that, and 
with your having that kind of expertise and you are developing 
things and engineering, you are trying to develop that, it 
would appear to me that you could get on a more direct path to 
doing that.
    Each year when you come, you talk about this, but your 
budget does not redirect that. Your budget shows decreases in 
those programs that will take you in a direct line reaching 
those objectives. For example, you decrease the HBCU-UP Program 
by $3.03 million, and when the dollars are not there, it is 
very difficult to recruit and to work with minorities and women 
in that we were late getting them this, and when these 
decreases hit them first, it makes it very hard to reach that 
goal.
    So I do not think scientifically that anything will work 
out in changing the culture, because you are trying to offset 
what you have shown me there, which in my opinion, Doctor, 
having worked with these kinds of things for a long time, 
having been involved in them directly, that it is going to be 
difficult to do this unless you directly approach it.

                   CENTERS FOR LEARNING AND TEACHING

    First of all, you have the Centers for Learning and 
Teaching, and I would like to know where are they and what 
populations do they serve. You want $6.8 million more to put 
into those centers. Where will they be located, and how will 
they be chosen?
    Dr. Colwell. The Centers for Learning and Teaching, in 
fact, represent one of the enhancement areas for us to improve 
minority participation in science and technology, and the 
specific questions as to where they will be located, again I 
will ask Dr. Ramaley to speak. Before she speaks, let me again 
emphasize, in answer to the first comment you made, that we are 
trying very hard to increase participation through the 
engineering research centers and, outreach programs, and 
linkages with HCBU science and technology centers. Within the 
math and physical sciences directorate, there are targeted 
programs.
    In other words, what you see as the list of programs that 
are specific to minorities and women is not all that we are 
doing, and that is why it is very important for us to increase 
the other kinds of programs as well. So to offset the amount of 
the $4 million total cut in the programs for women, minorities, 
and disabled, we are trying to increase the amount of funding 
for minorities in the other programs.
    Judith.
    Dr. Ramaley. If I may pick up on that before answering your 
other question, the Centers for Learning and Teaching also 
illustrate the point Dr. Colwell just made, and the reason is 
there is a special emphasis on minority teachers of science and 
math in that particular program. The purpose of which is to 
attract a diverse group of people to science and math careers.
    There are seven of these programs. The first is Use of 
Information Technology to Understand Science. That is atTexas A 
& M; Innovative Math Education at the Universities of Delaware and 
Maryland, and Penn State; Development of Rural Education Expertise, a 
very interesting one essentially related to Appalachia; Increased 
Assessment Capacity, most interesting. That is at Stanford and UCLA and 
Berkley; Integration of Information and Formal Science Education; 
Education Reform in Science and Technology; and Enhancement in Graduate 
Instructional Workforce at Wisconsin, Berkley, and UCLA.
    Mrs. Meek. Thank you. Not one of them is at a historically 
black college.
    Dr. Ramaley. Not yet. There are historically black colleges 
in the network. There are proposals that have been submitted 
for post-secondary education, and there are a couple of HBCU 
centers.
    Mrs. Meek. I do not want to be contentious, Dr. Colwell, 
but I would like to say again that you can reach that goal much 
better if you were to put some of them in the mix, and perhaps 
the culture would change a little bit faster if you were to 
look at it in such a way as to see how can you go directly to 
the source of much of this.
    I have other questions regarding some of your programs. 
Many of your programs that may really touch minorities are 
being reduced like the EPSCoR program, which you do have, the 
Stokes Alliance Program.

                         MAGNETIC RESONANCE LAB

    My last question has to do with Florida, Doctor. Each year 
I ask you this, about the magnetic resonance lab, the mag lab. 
I was in the Florida legislature when you started that program, 
and I would like to know how that is working now. FSU does that 
program in conjunction with Florida A & M University. How does 
this year's funding compare with last year's funding in that 
program.
    Dr. Colwell. I happened to be on the National Science Board 
when that program was established at Florida, and it has been 
enormously successful. With respect to the specific question, I 
will ask Dr. Eisenstein to answer the question.
    Dr. Eisenstein. Mrs. Meek, I am Robert Eisenstein. I am the 
Assistant Director for Mathematical and Physical Sciences at 
NSF, and the mag lab is under my purview. I just made a visit 
there, in fact, three weeks ago. The budget for fiscal year 
2003 is actually down by a little bit because the budget for 
2002 had an additional adjustment in there for power costs. 
This was a one-time only expense, and so that is why there is 
an apparent decline in the budget for this year. The mag lab 
has been extremely successful. We are very proud of it.
    Mrs. Meek. Thank you, Doctor. Thank you, Mr. Chairman.
    Mr. Walsh. Thank you.
    We will begin a second round of questions. I am sure we 
will submit questions for the record.

                    SOUTH POLE STATION MODERNIZATION

    The South Pole has been very much in the news of late. So I 
would like to ask several questions about that. I am pleased to 
note that construction of the new South Pole station seems to 
be progressing essentially on time and on budget, and your fine 
program staff should be congratulated on their efforts thus 
far.
    I would note further that the 2003 request includes $6 
million for additional construction on this facility, which 
would bring capacity of the building from 110 to 150. Given 
that construction teams are already in place, it makes perfect 
sense to make this proposal at this time. It is my 
understanding that with these additional 40 beds, your annual 
South Pole team will include approximately 75 researchers and 
75 support staff. Without the additional beds, these same 
numbers show 46 researchers, 64 support personnel.
    Now that the accommodations are well underway at the Pole, 
it seems to me that the NSF should begin looking closely at the 
need for improved accommodations at its other two Antarctica 
bases. Facilities at both stations are not only old, but well 
used and provide a college dormitory type of atmosphere that is 
neither well suited nor meets the needs of both the research 
community nor the contracted staff that support the complicated 
24-hour operation.
    What steps has NSF taken so far to address the 
accommodations needed by at McMurdo and Palmer Stations?
    Dr. Colwell. First, let me say that when I was on the 
National Science Board, I chaired the Polar Research Committee. 
We issued a report which we are in the process now of actually 
completing every recommendation of that report. I am very proud 
of that success.
    We are in the process of completing, as you pointed out, 
South Pole Station modernization, and we will be looking at 
facilities at McMurdo in the future. The task right now is to 
ensure that South Pole Station gets completed on time and, as 
you point out, within budget. I thank you for your supporting 
statement about providing facilities for 150 people at the 
South Pole Station.
    As we work though plans for the out year budgets, this will 
be a consideration.
    Mr. Walsh. In the out years for the other two stations?
    Dr. Colwell. Yes.
    Mr. Walsh. Can you be more specific?
    Dr. Colwell. I will ask Dr. Erb if he would like to 
comment.
    Dr. Erb. Karl Erb, Director of the Office of Polar 
Programs. We are anticipating completion of the South Pole 
Station in the 2006-2007 season. That includes removing the 
dome from the facility.
    We have a long-range plan for renovating both the McMurdo 
Station and Palmer Station. Those are our other two stations in 
Antarctica, and we make progress on those plans on a year-by-
year basis to the extent the funds allow.

                NATIONAL ECOLOGICAL OBSERVATORY NETWORK

    Mr. Walsh. All right. Regarding the National Ecological 
Observatory Network, the budget requests $12 million to start 
the National Ecological Observatory Network. According to the 
budget justification, a total of $40 million will be needed 
over the next three years to establish two prototype NEON 
observatories. When one of two are up and running, NSF will 
evaluate the success of NEON and consider the eventual scope of 
the full NEON concept.
    What specifically is involved with establishing two 
prototype observatories?
    Dr. Colwell. The objectives are to provide state-of-the-art 
research tools for studying everything from levels of 
biological organization, including molecular genetics to DNA 
profiles. This involves providing equipment and selecting 
sites. That will be done on a competitive basis, and then 
providing the equipment that will enable measurements at every 
site that will be directly comparable with similar measurements 
at all other sites providing a virtual information technology 
connectivity, so that the databases for the stations can be 
tapped by any one station at any given time.
    It will be establishing the criteria and the 
generalparameters of each of these ecological sites. It is very timely 
that we establish NEON because it will provide the kind of sensor 
technology that is most advanced and that will allow other agencies to 
be able to utilize those sites for their needs as well.

                      ACID RAIN AND BIOCOMPLEXITY

    Mr. Walsh. I have a specific issue that maybe you can 
address. I just finished reading an article in Adirondack 
Magazine. The Adirondacks are a million square acres and 
primarily wilderness in New York State. People find that hard 
to believe, but it is true. Acid rain deposition, even though 
we passed the Clean Air Act, several Clean Air Acts, this acid 
rain deposition is still destroying ecology of that very 
fragile environment.
    There is a major snow melt every spring, and it turns the 
lakes into very acidic, basically acid baths that kill 
everything that lives in those lakes, especially at the higher 
altitudes.
    The President has weighed in with his Clear Skies proposal, 
and there are a number of issues that are still adrift, really, 
in terms of dealing with that. It is working in some places. It 
is not working in others, given the altitude and the fragility 
of this environment.
    What sort of research is the National Science Foundation 
funding that will help us to resolve these sorts of issues?
    Dr. Colwell. Well, you know, this is very similar to acid 
mine drainage with which I am very familiar, having done 
research on acid rain damage myself. That is where you get very 
acidic products ending up in streams so that they become 
essentially sterile.
    What is interesting is what it does is change the microbial 
populations. You select for acid tolerant populations that can 
function at very low pH. If you tinker with the pH, as occurs 
in these instances, you change the microbial community 
structure, and that is something that we really are keenly 
interested in understanding in biocomplexity studies, for 
example. Just what does diversity at the microbial level, as 
well as the macrobiological level, really contribute? Why is 
diversity important? And here we can see that the interactions 
of microbial populations can counteract some of these effects.
    If we can stimulate certain components of the population to 
maintain their proportional representation, we can then 
counteract the pH effect. This is why biocomplexity is so 
critical. It is because analyzing these interactions are not 
simple, and they do require a much more sophisticated approach 
than we have taken in the past. I could go on for an hour.
    Mr. Walsh. And I am really out of time, and what I will do 
is I may submit follow-up questions on that. Obviously, these 
are issues of applied science. I would be interested to know 
what sort of the funding streams we are providing that will 
assist that, because it is a problem with the Adirondacks and 
it is a problem globally, and I think the U.S. is ahead, but we 
are still not repairing this environment. It is just not 
recovering.
    Dr. Colwell. You are right. We will be happy to provide the 
information, because we do have it available.
    Mr. Walsh. Okay. We have a vote. I think we have time to go 
to Mr. Price.
    Mr. Price, please proceed.
    Mr. Price. Thank you, Mr. Chairman.

         APPLICATION OF PERFORMANCE MEASURES TO BASIC RESEARCH

    Dr. Colwell, I like to raise the question of the 
application of performance metrics to research and particularly 
to basic research. For the fiscal year 2003 budget for applied 
energy research programs at the Department of Energy, the OMB 
employed as set of performance metrics to prioritize funding 
requests, and we are told that OMB intends to use these applied 
performance metrics for other agencies in the Fiscal 2004 
budget cycle and to develop a set of performance criteria for 
prioritizing funding for basic research programs as part of 
that process.
    In your opinion, can we make budgeting decisions, 
particularly for basic research, based on performance metrics? 
I would like you to reflect on that and on NSF's role in 
developing such measures. I would think that the application of 
performance metrics would be particularly difficult with 
respect to the research that NSF funds. Measuring success in 
basic research is maybe a little like waiting for water to 
boil. If one is too impatient to see tangible results, you may 
give up too soon. You may lose the prior investment of time and 
energy, and you may sell short a potentially valuable line of 
research.
    We perhaps sometimes are too impatient in demanding the 
results, and this application of performance metrics might even 
exacerbate that tendency. Yet we all understand the need for 
results, for accountability, and for using funds accountably.
    So can you give us an idea what sort of criteria would be 
appropriate for evaluating and making budgeting decisions about 
basic research? Do we have or can we develop the tools to do 
that?
    Dr. Colwell. It is a fascinating question. The answer 
immediately to the question ``can we predict discoveries,'' is 
no. Can we promise 10 discoveries next year in every division 
that is funded at NSF? The answer is absolutely not.
    However, there are other metrics, and we are working with 
the Office of Management Budget to identify useful measures. In 
fact, at the request of OMB, we are running a workshop at the 
National Science Foundation, bringing in outside folks who have 
studied this problem, and we are going to have a discussion as 
to what kind of metrics, what kind of performance measures, one 
would apply to the basic research.
    I understand that the Committee on Science Policy (COSEPUP) 
at the National Academy of Science has been addressing this 
particular problem. As you yourself pointed out, we do need to 
have some sense that we are on the right track and exactly what 
are the measures that tell us that we are on the right track. 
We are searching for those measures.
    So I do not have a--how should I say it?--a well-crafted 
answer for you. I can only say that we are exploring this area 
and hoping that we will be able to provide some reasonable 
measures for fundamental research.
    Dr. Kelly. The Board just completed a study called 
``Federal Research Priorities,'' a Process for Setting 
Priorities, and it deals with this very issue, and that study 
is available to you all. It has just come into publication, but 
we interviewed representatives from the Federal agencies, from 
eight different foreign governments as to how they did it. We 
did a complete literature review of the documents from the 
academies and from the Federal agencies.
    So all of the literature is in one place for you to review.
    The conclusion on that is that across-the-board in the 
Federal Government, you can measure rates of return on 
investment if you have the proper data. The databases are very 
poor. They are not designed for this purpose, and an investment 
needs to be made. It is a small investment that would have a 
huge payoff in terms of the quality of the data available. Once 
you have the quality of the data available, the certainty of 
your estimates varies according to level of application, to 
basic research, the whole spectrum. It is naturally more 
difficult at the research level than it is at the other levels.
    However, OMB when they first encouraged us to move in this 
direction said we are going to be making our priority decisions 
for science and engineering and basic research based on 
whatever data we have, and it is going to be a database 
judgment we are going to make even if the data are bad. So it 
is important to get at this issue, because those calculations 
are going to be made, and it is critical that they be made in a 
most sophisticated fashion, and we will ship over a copy of 
these reports right away to you all.
    Mr. Price. And you say that NSF is hosting a conference on 
this?
    Dr. Colwell. Yes.
    Mr. Price. When is that going to occur, and will those 
results be available in advance of the 2004 budget submission?
    Dr. Colwell. I believe they will be, and I will ask Dr. 
Bordogna to comment.
    Dr. Bordogna. Joseph Bordogna, Deputy Director. The purpose 
of this workshop is to explore the research knowledge base on 
program performance measurement, to get our hands around it. So 
it is a small group with OMB leaders sitting with the best 
researchers in the country to discuss these things. The 
workshop will provide a sense of the way to go, and will take 
place in the middle of May.
    Mr. Price. All right. My time has expired. I appreciate 
that information, and let me just ask for the record that you 
offer any additional comments you might have, particularly on 
the Government Performance and Results Act, which as you know 
was an attempt by Congress to impose some performance measures. 
I understand that has been met with mixed success.
    How has it, though, impacted your research programs? Has it 
been a useful tool? And then any further comments you want to 
make on how NSF-sponsored research should be prioritized and 
who should be doing the prioritization. I do think this is an 
important issue, particularly with OMB declaring its intent to 
move in this direction.
    Mr. Walsh. If you could respond for the record.
    Dr. Colwell. Sure.
    Mr. Walsh. Thank you.

                  Impact of GPRA on Research Programs

    For may years, NSF has assessed and evaluated the outcomes 
of its research and education program investments by convening 
external committees of experts to review and assess the quality 
of the agency's science and engineering investment outcomes and 
to assess the integrity and efficiency of the merit review 
process. NSF has capitalized on the demonstrated value of these 
assessments to meet its GPRA reporting responsibilities. 
External committees of experts selected to ensure independence 
and breadth of science and engineering coverage and 
representing academy, industry government and the public 
sector, provide an assessment of the agency's success in 
realizing its GPRA strategic goals of PEOPLE, IDEAS and TOOLS. 
The results of these assessments are incorporated in the 
agency's GPRA Performance Plan and have informed the 
development of agency research and education priorities.

    Mr. Price. Thank you very much.
    Mr. Frelinghuysen.

          IMPROVING PARTICIPATION OF WOMEN IN MATH AND SCIENCE

    Mr. Frelinghuysen. Dr. Colwell, by virtue of your position, 
you are a role model for women. I just would like to know 
personally what you are doing to promote the active involvement 
in education for young women in math and science, what you 
personally are doing.
    I count my lucky stars every day that I married up in life 
to a woman who is very good at math and science. I have two 
daughters, 15 and 17, but I know that there has been some 
erosion in their level of math and science. We are blessed, but 
I would like to think that you are proactive in what you are 
doing. Obviously, you have a lot of bright people behind you, 
and I would just like to know what you personally are doing.
    Dr. Colwell. Personally? I produced two daughters who are 
scientists.
    Mr. Frelinghuysen. Great.
    Dr. Colwell. One is an evolutionary biologist, and the 
other is an M.D./Ph.D. So I think I have contributed.
    This is a very important area, and I am asked to give many, 
talks, which I do, and I travel around the country, speaking to 
women's groups, but for the most part, being very visible at 
universities and in business meetings and so forth.
    I think what is very critical is providing an environment 
that enhances the sense of accomplishment for girls and women 
in science and technology. We have found that in, for example, 
computer science, there is kind of a cold atmosphere for women. 
We are trying to get at just what are the parameters associated 
with this coldness toward women. Is it just because it is 
considered to be a nerdy kind of science? I do not think that 
is an answer. It is too simplistic, because there are lots of 
nerds who are not scientists.
    It is a matter of influences in the first six grades. Role 
models are very important if women, girls, are to continue in 
science. This is why the GK-12 Program is so important, because 
it brings role models at about the age group of a big brother 
or big sister in the form of a graduate student who is majoring 
in science and engineering and pursuing an advanced degree, who 
works 20 hours a week in the elementary, middle, and high 
schools teaching math and science.
    Mr. Frelinghuysen. But how widespread is that?
    Dr. Colwell. That program is very successful.
    Mr. Frelinghuysen. Obviously, there are issues of self-
esteem, and obviously we are not talking about single-sex 
public education, but in reality, you really need to push the 
envelope on this, and that is what you are saying you are 
doing.
    Dr. Colwell. We are trying very hard to do that in anumber 
of programs, such as the ADVANCE program.

                       GRADUATE STUDENT STIPENDS

    Mr. Frelinghuysen. I wanted to ask you about that. If I 
were to concentrate for a second on the workforce, and we have 
talked in this committee over the years about increasing 
stipends. It is always a mystery to me whether your increases 
are matching other Federal agencies. Are they or are they not? 
Are they behind, and how many of those stipends go to young 
women graduate students as opposed to young men?
    Dr. Colwell. I think we are up to 40 or 50 percent, are we 
not?
    Mr. Frelinghuysen. I will need a dollar amount. Are we 
comparable, and maybe you could work on the figures.
    Dr. Colwell. The stipend is across-the-board.
    Mr. Frelinghuysen. That is true, but is that true for every 
Federal agency with this type of research? I thought to some 
extent there has been sort of a non-even hand dealt.
    Dr. Colwell. I think we are providing leadership, and I 
think that is important. I think other agencies are beginning 
to move in the direction that we are. Some agencies actually 
pay more.
    Mr. Frelinghuysen. That is my point.
    Dr. Colwell. The NASA fellowship is higher.
    Mr. Frelinghuysen. I think maybe that is purely driven by 
the budget, but I certainly felt over the years that you have 
been lagging. People would come to us and say let's get----
    Dr. Colwell. That is right. When I arrived here at NSF in 
1998, the average stipend was about $16,000, and that clearly 
was not enough, because the starting salary for bachelor's 
degrees is around $32,000. So what we are trying to do is to 
establish the NSF fellowships as the most prestigious, the most 
sought after, and the one that provides enough money to live on 
and to avoid either accruing--well, avoid accruing even greater 
debt, because we have found that particularly first-timers in a 
family going to college, the amount of debt accumulated--by 
minorities and women--will be in the neighborhood of $20,000.
    That also leads me to the point of community colleges. This 
is important because it is in community colleges that the bulk 
of African Americans, Chicanos, Hispanics, and women will be 
found. Forty percent, I think, of undergraduates start at a 
community college.
    Mr. Frelinghuysen. We know that in my state. We have the 
Princeton Directors, and they are certainly centers of 
excellence, but the community colleges have the large bulk of 
young people and for that matter young adults, and I do 
somewhat get discouraged at times. I would like to have those 
figures, if they do exist.
    Dr. Colwell. Fifty-one percent of the graduate fellows went 
to women this year.
    Mr. Frelinghuysen. Great. That is good to have on the 
public record.
    Dr. Colwell. That is just about the representation of women 
on the planet Earth. That is pretty good.

                         FOREIGN STUDENT VISAS

    Mr. Frelinghuysen. That is what I was told.
    On another workforce issue that Dr. Kelly raised, we often 
get comments around the H-1B visas, and I just wondered if you 
had any comment on that. The other side of that coin is that 
businesses often say, well, there is no incentive for a lot of 
people to go into these different types of specialties since we 
have sort of the policy of importation of scientists from 
Pakistan and India. I just wonder whether you had some further 
comments to what you had in your initial remarks on the 
national workforce policies that relate to this type of 
situation.
    Dr. Kelly. Well, the workforce task force is completing its 
work, working at a good pace, but it is going to be a little 
bit longer until their conclusions come out. But they are 
looking at the issues such as the shortage of scientists and 
engineers projected against the Nation's needs. They are 
looking at the sources of filling that gap and focusing heavily 
on women and minorities.
    Mr. Frelinghuysen. But you are aware, obviously, as a group 
of what we are using now.
    Dr. Kelly. Yes, and they will be concerned also with the 
number of immigrants in terms of science. My parents come from 
the Old Country. So I am sensitive on the question.
    Mr. Frelinghuysen. We celebrate our diversity. We are a 
nation of immigrants, but in reality, sometimes it eats away at 
us from time to time that somehow there is a disincentive 
because we have a certain policy.
    Dr. Kelly. It is a question of prudence, and when you are 
up to 50 percent of a specialized area that is served by 
foreign nationals, it puts you in a high-risk position and is 
inappropriate. What we have been doing is really, in my 
judgment, we have been increasing the supply of immigrant 
scientists and engineers with that increased supply driving 
down the average, so it has been a subsidy to universities and 
corporations, but then you do not have any incentives for young 
Americans to go into science and engineering.
    Mr. Frelinghuysen. That is exactly my point.
    Dr. Kelly. So that is an issue. That is the economics of 
it.
    Mr. Frelinghuysen. I think people like you and the people 
who serve with you under your group, you need to be somewhat 
more vocal.
    Dr. Kelly. We are vocal on that, but we do not really want 
to be----
    Mr. Frelinghuysen. Political?
    Dr. Kelly. No, not political. We do not care about being 
political. That is not our assignment. I will leave that go in 
terms of the National Science Board and their political 
affiliations. They are neutral.
    But what you do want to do, however, is clearly have the 
data in hand and the projections in hand and a firm foundation 
before someone like the National Science Board makes a public 
statement. So on those other studies like the setting of 
priorities, we are comfortable with everything we have 
recommended in there. We want to have the same level of comfort 
on this issue, which is a particularly important and sensitive 
and hot issue.
    Mr. Frelinghuysen. It certainly is.
    Dr. Colwell. Let me add a statement. I think what we have 
got to do, and I will put it succinctly, we have to reduce our 
addiction to foreign talent because we need to ensure that our 
citizens, our native-born citizens or naturalized citizens are 
educated to compete effectively in the workforce. We are very 
keenly aware of this at NSF, and it is one of the reasons we 
are very enthusiastic about the math-science partnership.
    Mr. Frelinghuysen. Thank you very much, Mr. Chairman.
    Mr. Walsh. Thank you. Good questions.
    David, do you have any questions?
    Mr. Price. I have no further questions, Mr. Chairman.
    Mr. Frelinghuysen. I just had one brief question.
    Mr. Walsh. Go ahead.

                           FISHERIES RESEARCH

    Mr. Frelinghuysen. Before we went on record, I made 
reference to that New York Times article yesterday about the 
depletion of areas where there have been great fishing, and in 
certain parts of the world, those who troll for fish, there is 
not much left in the way of the basic fisherman.
    You mentioned agriculture, some of the things you are 
involved in. Can you just briefly discuss what the National 
Science Foundation is doing in terms of ``self-sustainment''?
    Dr. Colwell. The National Science Foundation is funding 
what I would call marine biotechnology, and that is 
understanding the full life cycle of species like the blue crab 
and striped bass and other species. I was remarking on the 
great success that has been achieved in a laboratory in 
Baltimore where they have an enclosed system culture and have 
been able to rear blue crabs from the egg stage through the 
larva stage, the adult, and then again through the egg stage, 
which means that the enclosed system, with understanding of the 
full complexity of these kinds of animals, is very difficult. 
You have got to have a suitable food source and other growth 
requirements. That was the key.
    It is a mechanism for being able to restock, replenish so 
to speak, natural habitats, but more importantly, to provide a 
commercial source of production so that you leave the natural 
habitat to do what it is supposed to do, and that is maintain a 
full ecological cycle.
    Mr. Frelinghuysen. Thank you. Mrs. Meek and other members 
may have questions for the record. We would ask that you 
respond in a timely fashion.
    Thank you both for your testimony today, and we wish you 
luck in the coming year, especially you, Dr. Kelly, as you 
depart the National Science Board.
    Dr. Kelly. Thank you.
    Mr. Walsh. The meeting is adjourned.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                               I N D E X

                              ----------                              

                      National Science Foundation

                                                                   Page
Acid Rain and Biocomplexity......................................    44
Adequacy of NSF Budget Request...................................    20
Administration and Management....................................    37
Administrative Costs.............................................    72
Advanced Technological Education Program.........................    27
Alabama Grants...................................................    88
Antarctica--Long Term Needs......................................    62
Award Size and Duration......................................... 75, 85
Basic Research Funding...........................................    25
Basic Research Support...........................................    39
Budget Justification.............................................    89
Centers for Learning and Teaching................................    42
Core Research Programs...........................................    83
Cost Versus Level of Success.....................................    33
Cyberscholars....................................................    78
Facilities Funding...............................................    84
Fisheries Research...............................................    51
Foreign Student Visas............................................    49
Funding Rate of Proposals........................................    38
Graduate Student Stipends........................................    48
Graduate Student Stipends and Grant Size.........................    74
Grant Size and Duration..........................................    26
High Altitude Research Aircraft..................................    18
Historically Black Colleges and Universities (HBCUs)............ 36, 85
Ice Cube Neutrino Detector Project...............................    19
Impact on Core Research..........................................    52
Improving Participation of Women and Minorities..................    40
Interdisciplinary Research.......................................    24
Large Hadron Collider............................................    57
Magnetic Resonance Lab...........................................    43
Major Construction Priority Setting............................. 19, 56
Major Research Equipment and Facilities Construction.............    75
Major Research Instrumentation...................................    17
Math and Science Partnership.............................36, 82, 83, 86
Merit Reviews....................................................    87
Multi-Year Business Analysis.....................................    69
Nanoscale Science and Engineering................................    32
National Ecological Observatory Network..........................44, 63
NSF Centers......................................................    86
Outreach to Community Colleges...................................    35
Participation of Women in Math and Science.......................    48
Performance Measures and Application to Basic Research...........    45
Personnel........................................................    54
Priority Areas...................................................    72
Priority-Setting for Major Construction..........................    18
Priority-Setting Process.........................................     2
Proposed Transfer of Sea Grant and Other Research Programs to NSF
  21, 59, 80
Questions for the Record.........................................    52
Research and Investment Priorities...............................     2
Research Vessels.................................................    65
Rule of Community Colleges.......................................    27
Science and Technology Institute.................................    88
Sea Grant Program................................................    39
South Pole Station Modernization.................................    43
Statement of Dr. Eamon Kelly.....................................     7
Statement of Dr. Rita R. Colwell.................................     2
Sustained Leadership in Nanoscale Science........................    37
Visibility of NSF................................................    23
                                <greek-d>

</pre></body></html>
